      NATIONAL RAILROAD
      PASSENGER CORPOARATION
                                         Office of Inspector General




Memorandum
To:           Jeff Martin, Chief Logistics Officer
              Bruce R. Pohlot, Chief Engineer

From:         Calvin E. Evans, Assistant Inspector General, Inspections and Evaluations

Date:         May 2, 2013

Subject:      Engagement Memo—Evaluation of Amtrak’s Acquisition of Concrete Tie
              Replacements (Project 011-2013)

The Office of Inspector General is initiating an evaluation of Amtrak’s acquisition of
concrete ties to replace defective ties installed on areas of track in New England, using
funds provided through the American Recovery and Reinvestment Act of 2009.
Specifically, we will determine the extent of Amtrak’s oversight of the production of the
replacement ties. To accomplish this objective, we plan to review Amtrak’s
procurement policies, procedures, practices, and contract documents. We will also
interview the key Amtrak officials involved in acquiring, overseeing, and accepting the
replacement ties at various Amtrak locations, and we may interview officials from the
company that manufactured the ties. We are aware that Amtrak is actively engaged in
installing concrete ties and will keep you apprised of our findings as we progress.

We plan to initiate this work immediately, and will coordinate an entrance conference
through Amtrak’s audit liaison. The evaluation objective may be modified during the
course of our work, and we will keep you informed of any material changes in this
regard. This evaluation will be conducted in accordance with our statutory
responsibilities contained in the Inspector General Act of 1978, as amended.

Jason Venner, Larry Chisley, and Timothy Wells of my staff will conduct the evaluation.
Please contact me at Calvin.Evans@amtrakoig.gov/(202) 906-4507 or Jason Venner, Sr.
Director, at Jason.Venner@amtrakoig.gov/(202) 906-4406 if you have any questions.
Your cooperation is appreciated.
                                                                                2

cc:   Joseph H. Boardman, President and Chief Executive Officer
      Donald A. Stadtler, Jr., Vice President, Operations
      Eleanor D. Acheson, Vice President, General Counsel and Corporate Secretary
      Dan M. Black, Interim Chief Financial Officer
      Matthew Gagnon, Senior Director, Business Processes and Management Controls
      Melantha Page, Senior Audit Liaison
